FEDERAL DEFENDER PROGRAM, INC.
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA

SUITE 1500, CENTENNIAL TOWER
101 MARIETTA STREET, N.W.
ATLANTA, GEORGIA 30303

STEPHANIE KEARNS
EXECUTIVE DIRECTOR

TELEPHONE
404 688-7530
800 688-7538
FAX
404-688-0768

February 24, 2021
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543
Re:

Sealey v. Ford, Warden, No. 20-6294

Dear Mr. Harris:
Pursuant to this Court’s order dated March 19, 2020, petitioner in the abovecaptioned case, proceeding in forma pauperis, respectfully requests that the
Court delay distribution of the petition for a writ of certiorari for 13 days. The
petition is currently scheduled for distribution no earlier than March 4, 2021.
If this Court were to grant the requested 13-day delay, distribution of the
petition would occur no earlier than March 17, 2021. The conference date
would then be April 1, 2021.
Petitioner requires the additional time to file his reply due to the logistical
difficulties and dislocations caused by the COVID-19 pandemic, including the
need to coordinate among separate law offices with staff operating remotely.
Further, Petitioner is currently incarcerated. The Georgia Department of
Corrections has temporarily suspended in-person legal visitation, creating
challenges in communication between counsel and Petitioner.
Counsel for Respondent has authorized me to represent that Respondent does
not object to the requested delay in distribution.
Sincerely,
/s/ S. Jill Benton
Counsel of record for Richard L. Sealey

cc:
Sabrina Graham, Senior Assistant Attorney General
Georgia Office of the Attorney General
State Department of Law
40 Capitol Square SW
Atlanta, Georgia 30334
Counsel for Respondent

